                       U.S. Environmental Protection Agency                                                    09-P-0097
                                                                                                        February 23, 2009
                       Office of Inspector General


                       At a Glance
                                                                              Catalyst for Improving the Environment


Why We Did This Review            Results of Technical Network Vulnerability
The Office of Inspector
                                  Assessment: EPA Headquarters
General (OIG) contracted with
Williams, Adley & Company,         What Williams, Adley & Company, LLP Found
LLP to conduct the annual
audit of the U.S.                 Test results identified 391 Internet Protocol (IP) addresses that contained
Environmental Protection          vulnerabilities and EPA could only identify 118 of the IP addresses. This
Agency’s (EPA’s) compliance       prevented EPA from taking immediate actions to address the identified
with the Federal Information      vulnerabilities. On September 23, 2008, the OIG issued Report No. 08-P-0273,
Security Management Act.          Management of EPA Headquarters Internet Protocol Addresses Needs
OIG contractors conducted         Improvement.
network vulnerability testing
of the Agency’s local area        Field work disclosed weaknesses in the quality of information EPA uses to track
network located at EPA’s          the ownership of IP addresses. Specifically, network administrators were not
Headquarters in Washington,       updating the IP registry database with descriptive information to identify their
DC.                               assigned IP addresses, nor were they adhering to EPA’s naming convention policy
                                  when describing the equipment or device in the database. Also, there is no
Background                        evidence that EPA conducted data quality reviews to ensure the IP address
                                  database is accurate and complete.
The network vulnerability
testing was conducted to          This report summarizes discussions with EPA since the OIG issued report 08-P-
identify any network risk         0273, and transmits the full contents of the EPA Headquarters network
vulnerabilities and present the   vulnerability test results. This report also forwards several medium-risk
results to the appropriate EPA    vulnerabilities identified at the EPA Region 9 office that require action by
officials to promptly             Headquarters personnel to remediate. Region 9 officials were unable to resolve
remediate or document             these weaknesses because the network assets in question are managed by EPA
planned actions to resolve the    Headquarters personnel.
vulnerability.
                                   What Williams, Adley & Company, LLP Recommends

                                  Williams, Adley & Company, LLP recommends that EPA should:

                                     Develop and implement procedures to update the IP registry database with
                                      information that identifies the owner of the network resource and review the
                                      database regularly for accuracy and completeness;
For further information,             Take steps to remediate all unresolved security weaknesses at EPA
contact our Office of                 Headquarters and Region 9 and created a Plan of Actions and Milestones; and
Congressional, Public Affairs        Perform a technical vulnerability assessment test of Headquarters network
and Management at
(202) 566-2391.
                                      and managed assets at Region 9.

                                  Due to the sensitive nature of this report’s technical findings, the full report is not
                                  available to the public.
